No. 19-988

In The Supreme Court Of The United States
LIVING ESSENTIALS, LLC; INNOVATION VENTURES, LLC,
PETITIONERS,

v.
STATE OF WASHINGTON,

CERTIFICATE OF
WORD COUNT

RESPONDENT.

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Brief In Opposition, which was prepared using Century Schoolbook
12-point typeface, contains 6,087 words, excluding the parts of the document that are
exempted by Rule 33.1(d). This certificate was prepared in reliance on the word-count
function of the word-processing system (Microsoft Word) used to prepare the
document.
I am a member of the Bar of the Supreme Court of the United States.
DATED this 29th day of June 2020.
s/ Peter B. Gonick
PETER B. GONICK
Deputy Solicitor General
Counsel of Record

1125 Washington Street SE
Olympia, WA 98504-0100
360-753-6200

